<html>
<title> - FOOD SECURITY AND NUTRITION PROGRAMS IN AFRICA</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]


                      FOOD SECURITY AND NUTRITION 
                           PROGRAMS IN AFRICA

=======================================================================

                                HEARING

                               BEFORE THE

                 SUBCOMMITTEE ON AFRICA, GLOBAL HEALTH,
                        GLOBAL HUMAN RIGHTS, AND
                      INTERNATIONAL ORGANIZATIONS

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                            OCTOBER 7, 2015

                               __________

                           Serial No. 114-104

                               __________

        Printed for the use of the Committee on Foreign Affairs
        
        
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]        


Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/

                                 __________
                                 
                                 
                        U.S. GOVERNMENT PUBLISHING OFFICE
96-908PDF                    WASHINGTON : 2015                        
                                 
________________________________________________________________________________________  
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="9afdeaf5daf9efe9eef2fff6eab4f9f5f7b4">[email&#160;protected]</a>  
                               
                                 
                                 
                                 
                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         BRAD SHERMAN, California
DANA ROHRABACHER, California         GREGORY W. MEEKS, New York
STEVE CHABOT, Ohio                   ALBIO SIRES, New Jersey
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
MICHAEL T. McCAUL, Texas             THEODORE E. DEUTCH, Florida
TED POE, Texas                       BRIAN HIGGINS, New York
MATT SALMON, Arizona                 KAREN BASS, California
DARRELL E. ISSA, California          WILLIAM KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID CICILLINE, Rhode Island
JEFF DUNCAN, South Carolina          ALAN GRAYSON, Florida
MO BROOKS, Alabama                   AMI BERA, California
PAUL COOK, California                ALAN S. LOWENTHAL, California
RANDY K. WEBER SR., Texas            GRACE MENG, New York
SCOTT PERRY, Pennsylvania            LOIS FRANKEL, Florida
RON DeSANTIS, Florida                TULSI GABBARD, Hawaii
MARK MEADOWS, North Carolina         JOAQUIN CASTRO, Texas
TED S. YOHO, Florida                 ROBIN L. KELLY, Illinois
CURT CLAWSON, Florida                BRENDAN F. BOYLE, Pennsylvania
SCOTT DesJARLAIS, Tennessee
REID J. RIBBLE, Wisconsin
DAVID A. TROTT, Michigan
LEE M. ZELDIN, New York<greek-l>
TOM EMMER, MinnesotaUntil 5/18/
    15 deg.
DANIEL DONOVAN, New York<greek-l>As 
    of 5/19/15 deg.

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
                                 ------                                

    Subcommittee on Africa, Global Health, Global Human Rights, and 
                      International Organizations

               CHRISTOPHER H. SMITH, New Jersey, Chairman
MARK MEADOWS, North Carolina         KAREN BASS, California
CURT CLAWSON, Florida                DAVID CICILLINE, Rhode Island
SCOTT DesJARLAIS,                    AMI BERA, California
    Tennessee<greek-l>
TOM EMMER, MinnesotaUntil 5/18/
    15 deg.
DANIEL DONOVAN, New York<greek-l>As 
    of 6/2/15 deg.
                             
                             C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Carolyn Woo, Ph.D., president and chief executive officer, 
  Catholic Relief Services.......................................     3
Mr. David Hong, director of global policy, One Acre Fund.........    14
Mr. Roger Thurow, senior fellow, Global Agriculture and Food, The 
  Chicago Council on Global Affairs..............................    18

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Carolyn Woo, Ph.D.: Prepared statement...........................     6
Mr. David Hong: Prepared statement...............................    16
Mr. Roger Thurow: Prepared statement.............................    21

                                APPENDIX

Hearing notice...................................................    38
Hearing minutes..................................................    39
The Honorable Christopher H. Smith, a Representative in Congress 
  from the State of New Jersey, and chairman, Subcommittee on 
  Africa, Global Health, Global Human Rights, and International 
  Organizations: Statement of Kimberly Flowers...................    40

 
             FOOD SECURITY AND NUTRITION PROGRAMS IN AFRICA

                              ----------                              


                       WEDNESDAY, OCTOBER 7, 2015

                       House of Representatives,

                 Subcommittee on Africa, Global Health,

         Global Human Rights, and International Organizations,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The subcommittee met, pursuant to notice, at 12:45 p.m., in 
room 2255 Rayburn House Office Building, Hon. Christopher H. 
Smith (chairman of the subcommittee) presiding.
    Mr. Smith. The subcommittee will come to order, and good 
afternoon to everyone. We are here today to address the topic 
of food security and nutrition programs in Africa. As I think 
many of you know, I am sponsor of the Global Food Security Act 
of 2015, a bill which in its prior iteration passed the House, 
unfortunately it didn't gain support in the Senate although we 
are hopeful that that is something that will happen in the near 
future.
    The Global Food Security Act, H.R. 1567, will help provide 
a long-term strategy to combat global hunger by authorizing the 
existing national food security initiative coordinated by 
USAID, commonly known as Feed the Future. It is a bill with 
broad bipartisan support including the original co-sponsorship 
of my friend and colleague, Ranking Member Karen Bass, who will 
be here momentarily, as well as Foreign Affairs Committee 
Chairman Ed Royce and Ranking Member Eliot Engel.
    I am very happy that we will be joined shortly by the chief 
Democratic co-sponsor, Betty McCollum, with whom we have worked 
very closely on this legislation. I want to thank Betty as well 
as her dedicated staffer Jenn Holcomb for their hard work and 
dedication in promoting food security. This is truly a 
bipartisan collaboration that will result in enactment sooner 
rather than later of this legislation.
    I also want to acknowledge that other subcommittee members 
have joined us as co-sponsors, Mark Meadows, Dr. Scott 
DesJarlais, and David Cicilline.
    Investing in global food security is a policy that is both 
penny-wise and pound-wise. This program strengthens nutrition, 
especially for children during the critical first 1,000-day 
window, from conception to the child's second birthday. Indeed, 
there is perhaps no wiser investment that we could make in the 
human person than to concentrate on ensuring that sufficient 
nutrition and health assistance is given during those first 
1,000 days of life--1,000 days that begin with conception and 
continues through pregnancy, includes the milestone of birth, 
and then finishes at roughly the second birthday of that child. 
Children who do not receive adequate nutrition in utero are 
more likely to experience lifelong cognitive and physical 
deficiencies such as stunting. UNICEF estimates the one in four 
children worldwide is stunted due to lack of adequate 
nutrition.
    By addressing nutrition during the first 1,000 days of life 
we can help lay the groundwork for the next 25,000 or 30,000 
days of life, or whatever number our Creator has allotted, and 
ensure that they can be filled with good health, a good strong 
immune system, and all the other positives that accrue from 
that investment.
    As our three witnesses will attest today, enhancing food 
security is also transformational in the lives of millions of 
smallholder farmers throughout the world, particularly women. 
Feed the Future teaches small-scale farmers techniques to 
increase agricultural yield, thereby helping nations achieve 
food security, something that is in the national security 
interest of the United States. Of course, we are our brothers' 
and sisters' keepers and it is important that we be backing 
this and having their backs in ensuring that this becomes a 
reality.
    It is also economical in the long run and should lead to a 
reduction in the need for emergency food aid. The approach we 
have taken in the Global Food Security Act is fiscally 
disciplined, authorizing an amount for 2016. USAID nevertheless 
can do more with less by leveraging our aid with that of other 
countries, the private sector, NGOs, and especially faith-based 
organizations whose great work on the ground in so many 
different countries impacts so many lives. We will hear from 
Dr. Woo from Catholic Relief Services, momentarily, of the good 
work that her organization and other like-minded groups do 
throughout the world.
    By statutorily authorizing this existing program which had 
its roots in the Bush administration and was formalized by 
President Obama, we are also increasing our oversight by 
requiring the administration to report to Congress. Political 
will is absolutely essential in enacting a global food security 
policy that will continue and hopefully expand.
    Some things that I hope this hearing will bring to light 
are that such interventions in the lives of so many people in 
Africa, particularly in the first 1,000 days of life, are not 
only cost effective but morally imperative. Without objection, 
I will be adding testimony from Kimberly Flowers who is 
director of the Global Food Security Project for CSIS.
    And she points out in her statement that Tanzania has 
received more Feed the Future funding than any other focus 
country in the world, and then she just pours it on with what 
has actually happened.
    In 2014 alone, she points out, Feed the Future supported 
farmers, increased the value of their agricultural sales by 
more than $19 million. One hundred thousand producers reported 
that they are using new technologies and management practices 
for the first time, significantly improving production and 
increasing incomes.
    Feed the Future leveraged, she goes on, nearly $152 million 
in private investments in food and agriculture. During the same 
time, the U.S. Government reached 1.4 million with nutrition 
services to improve maternal and child health focusing on 
exclusive breastfeeding and complementary feeding, dietary 
diversity, and the uptake of zinc, iron, and other targeted 
micronutrient supplementation. This is a success story that 
obviously needs to be replicated and Tanzania is certainly a 
good showcase country where it has already done quite well. Let 
me just now introduce our panelists. And again, as members come 
I will recognize them for any opening comments that they might 
have. We will begin with Dr. Carolyn Woo who is president and 
CEO of Catholic Relief Services, the official international 
humanitarian agency of the Catholic community in the United 
States. Before coming to CRS in 2012, Dr. Woo served as dean of 
the University of Notre Dame's Mendoza College of Business and 
as an associate executive vice president at Purdue University. 
Dr. Woo was one of five presenters in Rome at the release of 
Pope Francis' encyclical on the environment in June of this 
year.
    We will then hear from Mr. David Hong who is a global 
senior policy analyst who leads global policy engagement at the 
One Acre Fund, a nonprofit social enterprise that supplies 
smallholder farmers with the tools and financing they need to 
grow their way out of hunger and poverty. Previously, David 
analyzed donor agricultural policies at the ONE Campaign and 
consulted on private sector agricultural investments at Oxfam 
America.
    We will then hear from Mr. Roger Thurow who joined the 
Chicago Council on Global Affairs as senior fellow on global 
agricultural and food policy in January 2010 after three 
decades at the Wall Street Journal. For 20 years he was a 
foreign correspondent based in Europe and Africa. His coverage 
of global affairs spanned the Cold War, the fall of the Berlin 
Wall, the release of Nelson Mandela, the end of apartheid, the 
wars in the former Yugoslavia, and many humanitarian crises.
    I would like to now yield to Dr. Woo for such time as she 
may consume.

STATEMENT OF CAROLYN WOO, PH.D., PRESIDENT AND CHIEF EXECUTIVE 
               OFFICER, CATHOLIC RELIEF SERVICES

    Ms. Woo. Thank you, Chairman Smith, and also Representative 
Bass, when she comes, for holding this hearing. As mentioned, I 
am the president and CEO of Catholic Relief Services which is 
the international humanitarian and development agency of the 
U.S. Conference of Catholic Bishops. We currently operate in 
over 100 countries and implement our programming through 
credible existing local networks, frequently those of the local 
church.
    Food security is a complex issue and requires a 
comprehensive response. Using what we call our Pathway to 
Prosperity model, we have improved nutrition and food security 
by helping farmers build sustainable livelihood through a 
multisectoral response. This actually includes agriculture 
development, nutrition, natural resource management, 
infrastructure development, and also formal market engagement. 
We have used Food for Peace resources for this work but 
increasingly Feed the Future also tackles these challenges.
    Today I want to focus on nutrition specifically and make 
three points: The importance of nutrition, the importance of 
the Global Food Security Act on nutrition, and the importance 
of U.S. leadership for nutrition. The first point, as Chairman 
Smith mentioned, poor nutrition is the underlying cause of 45 
percent of deaths of children under 5 years old, yet only 1 
percent of global development assistance is devoted to 
nutrition.
    Poor nutrition leads to stunting, which causes significant 
and permanent mental and physical impairment. The tragedy of 
these permanent impacts on children is why Catholic Relief 
Services is so committed to addressing nutrition in a child's 
first 1,000 days of life beginning at conception and through a 
child's second birthday.
    According to the World Bank, for every dollar invested in 
nutrition the return is $18. Catholic Relief Services adopts 
community-based approaches and interventions to bring about 
good feeding practices and reduce exposure to illnesses. We 
help farmer groups, saving groups, and mother's groups grow 
nutritious food or increase their income to be able to buy 
these foods.
    Let me just give you one example of how our Zambia USAID 
Feed the Future project is doing. Now this intervention is not 
like what you would expect. It is unusual in the sense that it 
doesn't deal with feeding, per se, directly, but it deals with 
income and asset generation. These are called Savings and 
Internal Lending Community groups called SILC. These are groups 
of small farmers who pool their money to make loans to each 
other so they don't take on debt. Those that take out loans 
from each other repay them with interest which gives all 
members a return on their investment.
    Let me showcase for you one woman by the name of Misozi 
Zulu. She is a member of one such group. She is the mother of 
two boys and she is raising them alone. She joined 22 women and 
7 men in forming one of the first SILC group in her village. 
Through this group she learned the basics of managing finance 
and recordkeeping as well as the importance of good nutrition.
    With greater financial knowledge and now access to capital, 
Misozi took out a small loan from her group and she invested in 
a bun-making business. She succeeded, paid off the loan and 
took out a bigger loan, this time to buy chickens. Loans after 
loans to date, Misozi has her own grocery store and is now 
raising cattle. With the money she earned, now her diet for 
herself and her children includes eggs, chicken, and vegetables 
which make for a much healthier diet. And also she now can 
afford the tuition for her children to go to school.
    More than 80 percent of SILC members are women, and 
participation is slowly changing their own perceptions about 
their ability to contribute to household expenses. SILC groups 
are also an important channel to distribute nutrition related 
messaging and also to enable these small farmers to diversify 
their livelihood, increase their income, and support healthier 
diets.
    The second point is the importance of the Global Food 
Security Act on nutrition. I want to thank Chairman Smith and 
also other sponsors of this bill because it elevates the 
importance of nutrition, making it a cornerstone in food 
security programming. This bill prioritizes vulnerable small-
scale producers providing more transparency and helping the 
poor become more resilient.
    The third and final point is that we believe that the U.S. 
must continue to focus on nutrition and make it a vital part of 
any food security and agriculture work. We urge the United 
States to participate in the Nutrition for Growth Summit in Rio 
next summer to exercise global leadership. We also advocate for 
continued support for development funding in Food for Peace as 
for its contribution to all the factors that improve nutrition. 
Thank you very much.
    [The prepared statement of Ms. Woo follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
        
                              ----------                              

    Mr. Smith. Dr. Woo, thank you very much for your testimony. 
Without objection, your full statement will be made part of the 
record as well as that of our other distinguished witnesses. 
Mr. Hong?

  STATEMENT OF MR. DAVID HONG, DIRECTOR OF GLOBAL POLICY, ONE 
                           ACRE FUND

    Mr. Hong. Thank you, Chairman Smith, Ranking Member Bass, 
Congresswoman McCollum and distinguished members of the 
subcommittee. Feeding a population of 9 billion people by 2050 
is one of the greatest, if not the greatest, challenges facing 
humanity. We will need to produce at least 60 percent more food 
than we do today, and most of that increased production will 
need to come from the 2.5 billion people that work on small 
farms around the world.
    Today these smallholder farmers are the single largest 
group of the world's population living in poverty. They live in 
remote areas and do not have access to basic agricultural tools 
and trainings. As a result, they struggle to grow enough to 
feed their families and face an annual hunger season of meal 
skipping and meal substitution.
    In the future, these hungry farmers have the potential to 
dramatically increase their yields, not just to feed themselves 
and their families but to feed the world. Agriculture yields in 
Africa for most staple food crops could be two to four times 
what they are today. And best of all, we know exactly what we 
need to do to help smallholder farmers achieve these yield 
increases.
    One Acre Fund is an agriculture organization that has 
developed an operating model to help smallholder farmers run 
profitable businesses. We are unique in several ways. First, we 
only serve smallholder farmers, primarily in east Africa, who 
typically farm on one acre of land or less. Second, we are 
technically a nonprofit but we operate like a business. Farmers 
pay for our products and services. And third, we have 
intentionally built a scalable model and we are growing fast. 
We serve over 300,000 smallholder farmers in Kenya, Rwanda, 
Burundi, and Tanzania, and we plan to serve 1 million farmers 
by 2020.
    We offer farmers a simple four-part operating model. First, 
we offer financing for farm inputs such as hybrid seed and 
fertilizer. We only finance productive assets. Farmers organize 
themselves into groups and are jointly liable to repay their 
loans, which is similar to microfinance.
    Second, we distribute seed, fertilizer and other products 
such as tree seeds and solar lights within walking distance. 
Smallholder farmers live in remote and isolated areas so 
getting products and services close to where they live is 
critical.
    Third, we offer training on modern agricultural techniques. 
Many farmers don't know how to apply fertilizer or how to plant 
in rows with the correct spacing, and we offer interactive, in-
person trainings throughout the agriculture season.
    And fourth, we offer market facilitation to help farmers 
maximize their profits from harvest sales. Just after harvest 
the market is flooded with crop surpluses, driving prices down. 
With proper training on safe storage, farmers can wait to sell 
their crops until market prices increase.
    This operating model has proven impact. On average, farmers 
working with One Acre Fund increase their profits on supported 
activities by 57 percent, or about $128. And for a farmer 
living on less than $2 a day, this is a significant amount of 
money.
    According to our data, farmers invest their income gains in 
new businesses, productive assets for the farm such as 
livestock, and school fees for their children. An important 
aspect of our model is our flexible repayment system. Farmers 
can repay their loan at any time in any amount throughout the 
entire growing season as long as they repay in full by harvest. 
In 2014, I am pleased to report that the average repayment rate 
was 99 percent, and in two countries 100 percent of clients 
repaid their loans.
    Farmer repayment enables us to move toward financial 
sustainability in our field operations. Seventy-four percent of 
our field expenses were covered by farmer repayment in 2014 and 
the nature of our business model stretches donor dollars to 
achieve more impact. Every dollar in grant funding that we 
receive generates approximately $3 in additional farmer income.
    In a constrained budget environment, it is even more 
critical for development organizations to maximize efficiency 
and impact. We are working hard to achieve financial 
sustainability in our field operations so that we can use donor 
resources to leverage even greater impact at a global scale. 
For example, in 2012, USAID Kenya awarded One Acre Fund with 
$3\1/2\ million to significantly scale up our Kenya operations. 
Over a 3-year period we delivered agriculture loans to nearly 
277,000 farm families, the majority of whom were women, and we 
achieved repayment rates of 99 percent.
    One Acre Fund has demonstrated that it is possible to help 
hungry farmers become successful business people, with surplus 
production that they can bring to local markets. Smallholder 
farmers are the answer to our global food security challenge. 
When they have access to basic tools and technologies they 
thrive.
    Thank you, Chairman Smith, Ranking Member Bass, and 
subcommittee members for the opportunity to discuss our work 
and for putting global food security high on the development 
agenda. As you know, making progress on agriculture, food 
security, and nutrition is imperative to the health and 
wellbeing of future generations. May we not let them down.
    [The prepared statement of Mr. Hong follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
        
                              ----------                              

    Mr. Smith. Thank you, Mr. Hong, very much.
    Mr. Thurow.

     STATEMENT OF MR. ROGER THUROW, SENIOR FELLOW, GLOBAL 
  AGRICULTURE AND FOOD, THE CHICAGO COUNCIL ON GLOBAL AFFAIRS

    Mr. Thurow. Thank you, Chairman Smith, Ranking Member Bass, 
distinguished members of the subcommittee, for inviting me to 
testify today on the vital subjects of global food security and 
nutrition. Nourishing the world in the face of population, 
climate, and scarce resource pressures is a great challenge of 
our time.
    I have been investigating and writing about this challenge 
for many years, first as a reporter and foreign correspondent 
with the Wall Street Journal, and now as an author of two 
books, with a third on the way, on global food security on 
nutrition, as a senior fellow for the Chicago Council on Global 
Affairs.
    In my first book, ``Enough: Why the World's Poorest Starve 
in an Age of Plenty,'' I and my co-author Scott Kilman explored 
how we had brought hunger with us into the 21st century; how 
the neglect of agriculture development and nutrition in the 
post-green revolution years resulted in increasing levels of 
hunger and malnutrition, particularly among smallholder farmers 
themselves, creating this cruel irony: The hungriest people in 
the world are farmers. Hungry farmers. What an awful, shameful 
oxymoron.
    In my next book, The Last Hunger Season, I set out to 
illuminate the lives of these smallholder farmers. There are 
hundreds of millions of them in the developing world, as we 
have heard the majority of them are women, and their importance 
for securing our global food chain. The more they succeed in 
feeding their families and neighbors through sustainable 
agriculture development through efforts like Feed the Future, 
the more we will succeed in our great challenge to nourish the 
world.
    At this point let me note that the Chicago Council has 
recommended the authorization of U.S. global food security 
efforts like Feed the Future and appreciates the work of the 
chairman, the ranking member, and others in their endeavors of 
this on that front.
    In my reporting, I followed four smallholder farmers in 
western Kenya for 1 year, this in 2011. The transformation of 
their lives when they finally had access to the essential 
elements of farming--better quality seeds, small doses of 
fertilizer, training, storage, and the financing to pay for it 
all--was remarkable. One of the families had a tenfold increase 
in their harvest in one season.
    They were the Biketis--father Sanet, mother Zipporah, and 
their four children. They were in desperate shape when I first 
met them. Their youngest child, David, was manifestly 
malnourished. They were in the middle of their hunger season, 
this period of profound depravation when food is rationed and 
meals shrink. In the previous planting season they had no 
access to fertilizer or seeds and they could only plant 1/4 of 
an acre. Their harvest was meager. Only two 100-kilogram bags 
of corn, which is their staple food. That barely lasted 2 
months and then they plunged into their hunger season.
    The next year, joining the One Acre Fund, they then had 
this access to the essential elements of farming. They were 
able to plant one full acre, and their harvest was a 
magnificent 20 bags of corn--two tons. With that tenfold 
increase, they had more than enough to conquer their hunger 
season and they now had a surplus for the first time in their 
lives which they could use for school fees, for necessary 
medicine, for construction of a small house with a metal roof 
that didn't leak in the rain anymore, and most importantly, 
they could afford a second planting season with a wide array of 
vegetables to diversify their diets and greatly improve their 
nutrition.
    From Zipporah I learned that the deepest depth of misery 
during the hunger season was to be a mother unable to properly 
nourish her children, which brings me to my current reporting 
on the importance of good nutrition in the 1,000 days, the 
time, as we have heard, from when a woman becomes pregnant to 
the second birthday of her child. This is the most important 
time of human development. For what happens in those 1,000 
days, the foundation of healthy physical development to rapid 
growth of brain and cognitive skills, determines to a large 
extent the course of a child's life--the ability to grow, 
learn, work, succeed. And by extension, the long term health, 
stability, and prosperity of the societies in which the 
children and which all of us live.
    Good nutrition is the cornerstone of this growth. It is the 
vital fuel of the 1,000 days. Any disruption in nutrition 
during this time can lead to stunting--physical, mental, or 
both. Today, one in every four children in the world is 
stunted. A child who is stunted is sentenced to a life of 
underachievement, diminished performance in school, lower 
productivity and wages in the workplace, more health problems 
throughout life, a greater propensity for chronic diseases like 
diabetes and heart problems.
    The impact, the cost, ripple throughout society, from the 
individual, to the family, to the community, to the nation, to 
the entire world. The cumulative toll of all this stunts the 
world economy by as much as 5 percent. For you see, a stunted 
child in Africa or Asia or here in the Americas is a stunted 
child everywhere.
    In my reporting, I am following moms and their children 
throughout the 1,000 days in four parts of the world: India, 
Uganda, Guatemala--countries which face immense challenges of 
malnutrition and stunting--and in Chicago. Why Chicago? Because 
the issue of good nutrition is not just something that is over 
there somewhere, it is also vital right here in the United 
States. Good nutrition in the 1,000 days is crucial for the 
success of American children in school and later in the 
workplace here as healthy adults who are contributing the 
nation's productivity and growth.
    Nutrition and all that supports it--clean water, 
sanitation, hygiene, healthcare, agriculture--are essential 
components of global food security. In development work, all 
these elements must come together at once at the same time.
    And finally, here is where the United States Government 
can, and should, lead with congressional action to authorize 
legislation that commits the U.S. to a long term global food 
nutrition security strategy with the success of smallholder 
farmers at the center, with policies that strengthen nutrition-
smart agriculture development and that expand access to and 
spur the consumption of healthy foods, and food aid and social 
protection programs with the focus on the crucial importance of 
the 1,000 days.
    For that is where it all begins, and it is where our 
actions on global food security and where American leadership 
and agriculture development and improved nutrition around the 
world has its greatest impact. Thank you again for this 
opportunity to testify.
    [The prepared statement of Mr. Thurow follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
        
                              ----------                              

    Mr. Smith. Mr. Thurow, thank you so much. I look forward to 
reading your book.
    Mr. Thurow. Thank you.
    Mr. Smith. When will it be published?
    Mr. Thurow. Next May, hopefully Mother's Day.
    Mr. Smith. Very good. That is fantastic.
    Mr. Thurow. Good timing, we hope.
    Mr. Smith. Thank you, appreciate it. I will yield to Ms. 
Bass.
    Ms. Bass. Thank you. Thank you very much, Mr. Chairman, as 
always, for holding this hearing on food security.
    As defined by the U.N., food security is a situation that 
exists when people have access to sufficient amounts of safe 
and nutritious food for normal growth and development. In 
contrast, food insecurity may be caused by the unavailability 
of food, insufficient purchasing power, inappropriate food 
distribution, or inadequate use of food at the household level.
    While the primary means of addressing acute food insecurity 
worldwide has been humanitarian intervention, this is costly 
and, by nature, reactive. As such, the development of a long 
term policy, which Mr. Thurow was just talking about, to 
enhance food security at the macro level which would also lead 
to economic growth, should be a goal of U.S. foreign assistance 
and collaboration with our global partners.
    The U.S. is the world's largest food aid donor spending an 
average of $2 billion on food aid programs from 2006 to 2013, 
and a majority of this spending was for emergency food needs. 
It has been supplemented since 2010 with annual outlays of $900 
million for nutrition and agricultural development programs 
under the Feed the Future initiative.
    Additionally, the U.S. has sought to address emergency food 
assistance under two primary programs--Title II of the Food for 
Peace Act, and the Emergency Food Security Program under the 
Foreign Assistance Act of 1961. We had a hearing earlier today 
where we were talking about the Food for Peace program and 
making reforms to that program, and I wanted to get your 
opinions about that for any of the panelists.
    I believe that when I was coming in I was listening to Dr. 
Woo talk about Feed the Future. I have had the opportunity to 
visit Tanzania, Ethiopia, and Kenya, and see for myself 
firsthand dramatic changes in watching farmers, as Mr. Hong 
described, go from being subsistence farmers to actually having 
excess, being able to sell their produce and developing their 
villages, buying trucks, farm tools, school uniforms and really 
transforming their communities.
    So I wanted to get your opinions about what should be done 
with our current Food for Peace program, how it should be 
reformed. And Mr. Thurow, you mentioned in broad terms policy 
changes that should take place, but you might provide some 
specific examples as well.
    Mr. Thurow. Sure. Carolyn, do you want to start?
    Ms. Woo. Yes. Ranking Member Bass, thank you very much. We 
also heard about the hearing that you had, but of course we 
were on our way here and did not have the details of it.
    But one point we want to make for Food for Peace is that it 
is very important to protect the development piece of it. Now 
all the things that we are talking about, all these 
interventions of how to help farmers increase their 
productivity, change their farming practices, build up their 
livelihoods, and change nutrition practices, those things 
happen through the development portion. And if we don't invest 
in that portion we will just have greater and greater 
emergencies and more people who would be needing help in an 
emergency situation. So I think the development aspect of it is 
absolutely critical for these type of long term, sustainable 
interventions. Thank you.
    Ms. Bass. Mr. Hong.
    Mr. Hong. Yes, I am reminded of an example. When countries 
invest in agricultural development you can have very different 
results. So in southern Ethiopia the government invested 
heavily in social protection measures and agriculture 
development for their farmers, and during the Horn of Africa 
food crisis the communities in Somalia faced severe famine and 
had to be supplemented by food aid from abroad. And this 
community in southern Ethiopia were fine because of the earlier 
investments. And so the long term nature of this is really 
important and cannot be stressed more and so that is why we 
want to focus on agriculture development.
    Mr. Thurow. Yes, I would agree with everything, I think, 
particularly on Food for Peace and the broader food aid arena 
that again with this irony that a lot of the beneficiaries of 
Food for Peace are farmers themselves and smallholder farmers.
    So that agriculture development piece of this is really 
crucial so that these smallholder farmers have the ability to 
grow enough food to feed themselves, their neighbors, 
eventually their countries and the continent of Africa, and so 
that they then won't be in the position of needing this 
assistance; that they want to be self-sufficient themselves.
    And that is what I have seen, and certainly what David 
would see with his farmers and with Catholic Relief and all the 
work that they do, is these farmers want to be independent. 
They want to be able to feed their families. The Food for Peace 
and the assistance is great in times of need and emergency, but 
it is that long term, sustainable agriculture development that 
is also a really key component of it.
    Ms. Bass. Well, is there any more that you think that we 
should do with Feed the Future? How it should be expanded, what 
needs to be changed, reformed, anything?
    Ms. Woo. I just want to say I think Feed the Future could 
increase its emphasis on smallholder farming. I think currently 
it deals with farmers with some assets, and again it is really 
for people at the bottom. And once you invest in them and you 
have these long term practices it increases resilience.
    And the other thing is too that development assistance now 
allows us to address the potential impact of climate. If it is 
two degrees warmer, if water is being scarce, we are actually 
looking ahead to prevent consequences to these farmers.
    Ms. Bass. Thank you. Anyone else?
    Mr. Thurow. I would say that also the emphasis on 
smallholder farmers, but that nutrition is the cornerstone and 
at the center of not only all agriculture efforts but all 
development efforts. And I believe that USAID, in this all-
encompassing program of development assistance, has an emphasis 
on nutrition at the center. And through that and particularly 
the emphasis on nutrition and nutritious value of the crops and 
nutrition education that then goes along with the programs that 
then becomes a great benefit for the women, the women farmers. 
Because what I have seen in my reporting, if they would also 
have experience, is that when the farmers fail and they are in 
this hunger season, the women and the women farmers feel that 
they are failing on two fronts. They are failing as farmers 
because they are not successful in growing enough to feed their 
families, and they are failing as mothers because they are 
having malnourished hungry children.
    Ms. Bass. Thank you. Thank you very much, Mr. Chair.
    Mr. Smith. Thank you very much, Ms. Bass.
    Let me just ask, Dr. Woo, first to you, assuming the reins 
of CRS as you did, and so effectively, you came with a 
background as being a dean of a school of business. I think 
your testimony and your leadership demonstrates that you 
believe that the more business-like the efforts are to meet the 
huge humanitarian needs and making it sustainable the better.
    And I am wondering if you could just, you mentioned in 
Zambia, for example, that smallholder farmers, you have helped 
them with the balance between the harnessing agriculture for 
consumption and for income through engagement with markets, and 
you might want to expand upon that if you would.
    Mr. Thurow, you make a very good point, as does Mr. Hong, 
about agriculture yields: In Africa, for most staple crops 
could be two to four times what they are today. That is huge. 
What a capacity to build out towards. And then you point out, 
Mr. Thurow that better quality seeds, small doses of 
fertilizer, training, and storage, and financing to pay for it 
all--it was remarkable when you talked about the Kenyan farmers 
who in a year increased their yield tenfold in their harvest. I 
mean that is spectacular with just some discipline.
    And in answering the question or elaborating on that if you 
could, we have learned the hard way what too much fertilizer, 
too much pesticide does to people. It gets into the food chain. 
It gets into our bodies. It has devastating impacts on children 
especially. And I am wondering if those lessons learned by what 
we have experienced and other Western countries with overuse of 
fertilizer and pesticide, the best practices are being utilized 
in places like Africa and other developing countries.
    Let me also, Dr. Woo, if you would speak to the issue of 
resilience. We got hit by Hurricane Sandy a couple of years 
ago--and I had meeting, I missed our hearing earlier, with the 
full committee, because I was chairing a meeting with FEMA on 
people who still have not been anywhere near made whole.
    South Carolina is experiencing it--every one of our states 
go through it--California with its drought. Resilience. Maybe 
you want you spend a little time on how that could be built 
into the better crop that can withstand less rainfall, for 
example.
    And then on the first 1,000 days of life, Mr. Thurow, I was 
at some of the scaling up meetings at the U.N. in 2010, and 
actually joined seven first ladies of Africa where they spoke, 
really, with unbelievable enthusiasm about how, like you have 
pointed out and now your new book will, I am sure, further 
elaborate on it, how stunting can almost disappear.
    And I was in Guatemala the day they signed an agreement 
with USAID and met with the Speaker the day they were actually 
signing on, because stunting is as you know a big problem in 
Guatemala as it is in many parts of Africa particularly in 
Nigeria.
    But this idea of the first 1,000 days of life--I like to 
cross-reference work that I do. I wrote the Combating Autism 
Act, the 2000 law, the 2013 and the 2010 versions. NIH has 
found, and they have three major studies to prove it that if 
enough folic acid is provided in the first month, not the 
second, third or fourth--it is good, but it is not 
determinative--but in the first month, it reduces the risk of 
autism by 40 percent.
    And we know tens of millions of kids and young people in 
Africa, according to the World Health Organization, are 
autistic or at least on the spectrum. And it seems to me that 
if that is included, as I am sure it is, all this great outcome 
for a modest micronutrient investment which could be made 
during those first 1,000 days. So if you might want to 
elaborate on that as well. But start with Dr. Woo.
    Ms. Woo. Yes, Chairman, I think you asked me two question. 
One is the business approach, the second one is about 
resilience. Let me begin with resilience. The cornerstone of 
adjusting resilience is really two things. One is to reduce 
exposure to any type of natural or manmade disasters, the 
second one is how do you help people rebound?
    So rebounding is very easy to understand. If you lost all 
your crops to a flood and you have no more seeds that is a 
problem. You cannot rebound, right. And so you start with the 
first one and that is if it is natural disaster, say for 
example, anticipating floods, anticipating drought, you could 
actually use seeds which are drought-resistant, flood-
resistant. You can change irrigation practices and so on, but 
you have to look ahead.
    And also there are also natural disasters such as storms. 
In those situations you could have pre-planning, you could have 
structures which could withstand various type of issues. So 
resilience is looking at those two things. Reducing exposure in 
different contexts, and secondly is increasing the ability to 
rebound. And diversifying crops, for example, is a way to 
rebound because then you are not all vulnerable to the same set 
of effects.
    Let me go into the business model because it is also a way 
of achieving resilience. It has now become very much the common 
thread that we undertake our programming, particularly in 
agriculture. For us to have the effect which address several 
billion smallholder farmers, we have to use approach which is 
scalable and then sustainable, and we cannot do that on the 
basis of just government funding or philanthropy. We have to 
find ways where it creates a return, it creates a benefit so 
that the people who want those benefits will sustain this.
    So for a smallholder farmer program it is really what we 
call Pathway to Prosperity. What does that pathway look like? 
It starts with people who are vulnerable. They grow things 
where there is no market. They grow it poorly. For example, the 
quality is really poor, and also their growing practices are 
not good. The overuse of fertilizers, for example, their land 
can be very degraded. They may not have the tools and the 
knowledge to manage all of those things correctly.
    So the first step is really diagnosing whether people are 
growing the right things with the right input in the right way 
on the right land. I mean, as simple as that. That is usually 
agriculture, but where we also come in is what we call the 
smart skills.
    So in fact it is a chapter from American agriculture. The 
first one is forming co-ops. Each individual farm is very hard 
to deal with, particularly when you have one acre, so the 
formation of communities of co-ops, so that whole grouping 
skills. The second one is a knowledge in finance and budgeting, 
because now we expose them because they have this scale to 
market.
    How do we enable them to achieve certification so that they 
could sell to various stores and so on? So also marketing 
skills and negotiating skills so that we are connecting to the 
formal market. And before they have all of these assets how do 
they generate their capital? And so One Acre Fund is one of 
those sources.
    And I think you are reaching 1 million farmers, right?
    Mr. Hong. We hope to.
    Ms. Woo. You hope to. Well, we are talking 1 billion 
farmers, all right, and so where do they find the capital to 
take this journey? That is why savings group is very important 
so that they don't borrow from an outsider but they borrow 
within themselves. So when 20 people pool their resources they 
could, like this lady I just talked about, started with a 
baking business, then a chicken business, then a grocery store 
and then buying cattle.
    So how we accumulate that capital and then eventually form 
people into co-ops that they have that type of group skills, 
the finance skills, the marketing skills, the negotiation, 
certification, in order eventually to connect with markets. So 
that is the whole business model associated with all of this 
transformation.
    Mr. Hong. Yes, thank you, Chairman Smith. So you asked two 
questions. One was around the yield gaps and one was around 
resilience, so I will talk about resilience first.
    One of the things that we have seen that is truly 
impressive with many smaller farmers is they are incredibly 
good at mitigating risk. And as they gain more income they 
diversify their assets right away. They buy a cow, they buy 
chickens, they are able to sell milk, eggs, things like that. 
So if there is a crop failure they have other things to sell on 
the market and other ways to make money.
    One of the things that happened a few years ago is in Kenya 
there was a disease called maize lethal necrosis disease, MLND, 
and it was spreading. It is a virus and it would devastate 
entire fields. And so we offered a package, an alternative 
package of local staple crops like sorghum and millet and 
orange-fleshed sweet potatoes to try to help farmers mitigate 
against this type of risk.
    We also offer things like drought-tolerant seed in our 
program as well as crop insurance for many of the farmers we 
work with. On yield gaps it is no secret that the soils in sub-
Saharan Africa are incredibly depleted. They require nitrogen 
from sometimes inorganic fertilizer to develop anything. So for 
us, we teach farmers to microdose to prevent leaching. So they 
use very small scoops of fertilizer, they target it, and 
through that they are able to increase their productivity.
    And so I will just pass on to Roger.
    Mr. Thurow. Yes, and I will just follow up on that. That 
what you see in the field with smallholder farmers all over and 
say the ones at the One Acre Fund, this little scoop that they 
use it is basically the size of a thimble. They provide one 
that is nice and plastic, but if they don't have that or that 
one goes lost or something, they basically just have a Coca-
Cola bottle cap or a beer cap which they somehow affix to a 
little stick and that is their dosage of fertilizer. One of 
those per maize seed that they put in the ground, a third for 
beans.
    And so you see them bending over very carefully, close to 
the ground particularly on the beans where they have a cap of 
this, and it is just a third in this one and a third in the 
next one. Back-breaking work because they are bending over so 
far to do that.
    And fertilizer, as it is for farmers in the United States, 
I mean, it is the most expensive component of their farming. 
They don't want to waste anything, so the microdosing. And then 
also other innovations with composting, some conservation 
agriculture and things that goes along, so there is other ideas 
that are then also starting to spread.
    And then just one point on the resilience. The crop 
diversity, I think, is really important. So in terms of Feed 
the Future or of other agriculture development programs, the 
diversity of and kind of shifting away somewhat or including in 
the work is just not an overreliance on the staple crops. So 
the corn, the rice, the wheat, the beans, but also these orphan 
crops--the millet, the sorghum, sweet potatoes--all sorts of 
local greens and vegetables that we don't know anything about 
but they know really well because that has been growing around 
them for a long time.
    And then the question on the 1,000 days. And the folic acid 
is crucial, starting at the time that you mentioned and kind of 
throughout the pregnancy. And what I found with a lot of the 
moms and the expecting moms, and particularly in Uganda, India, 
and Guatemala, is the reliability of the access to those kind 
of supplements, so the folic acid and the iron tablets that 
they make that they take. Whereas, here and Europe and the 
developed world that is part of the prenatal checkups and 
everything that you get and somebody is checking and making 
sure that they are being taken and things.
    There, when they go to the clinic there may be a shortage 
of them, so they are told, well, you get them the next time you 
come back. Well, who knows when the next time is going to be 
when they come back because it is a distance that they have to 
go to, there is probably a little expense with getting there. 
They will take them, it may make them feel funny and so they 
will say I was feeling better before I was taking these pills. 
So the knowledge that then goes along with it. So it is this 
whole integrated aspect. But it is folic acid, it is the iron, 
it is the zinc, it is the vitamin A, all these things that are 
essential and that we take for granted but are really key.
    And as you said in your opening comments, Chairman, there 
is no greater investment in this whole field than in the 1,000 
days. And investment in innovation, what is going on with the 
delivery systems of these fortified, of these supplements and 
fortifications, and efforts like even one initiative that I am 
following is the moms in Uganda are doing this. They are 
growing orange-fleshed sweet potatoes and high-iron beans.
    So the idea is that you let the crops do the work for you. 
There is the vitamin A or the beta-carotene that then becomes 
the vitamin A in the orange-fleshed sweet potatoes and in beans 
which already have an iron content. Through breeding you raise 
the iron content a little bit. And so they are just into foods 
that they are eating four or five, six times a week, they are 
getting those supplements and some of the important minerals 
that they need.
    Mr. Smith. Thank you. Ms. McCollum.
    Ms. McCollum. Thank you, Mr. Chair. When you were talking 
about sometimes taking the supplements and not feeling well, I 
turned to Karen. I said, yes, iron can do a number on you when 
you are pregnant.
    Mr. Thurow. That is what my wife----
    Ms. McCollum. So if you don't understand that that is going 
to happen, if it hasn't been described that it will pass after 
a week or so, you might be sorely tempted to say this might 
have been a nice idea but it is not for me.
    Mr. Thurow. Right.
    Ms. McCollum. The first time I had an opportunity to really 
see CRS in full action was in Malawi and I was at a seed fair. 
And it was absolutely amazing. There was training, there was 
nutrition, there was the talk about doing more diversity and 
that and it was just absolutely wonderful. And I think for me, 
no pun intended, but was some of the seeds of what I think 
people have come up with Feed the Future because it was so 
inclusive and it was so holistic at the fair.
    I just had an opportunity to be in Senegal recently where 
there was a Feed the Future project that was taking place with 
rice, but along with it there was work on granting not 
permanent title to land but 99 years for the title to the land 
so that people could feel that they could make the investment, 
and your neighbor next to you also was having a title.
    So the whole idea of about community pulling together.
    The training and the co-op is something which Land O'Lakes 
from Minnesota does a lot in it, so I think we know what all 
the pieces are and that is why I am so proud of the legislation 
here that we are all supporting about Feed the Future.
    But I want to turn this a little bit, and I hadn't planned 
on asking this question, but the question of resilience, and 
the way that you folks answered it, and then the question of 
pesticides and using less of them. GMOs are very, very 
controversial. Very controversial in Africa. I do not support 
people not being able to harvest seeds and replant them.
    I want to make it very, very clear that I think that there 
are GMOs that can serve a higher purpose. When I was in 
Bangladesh they were working on something with rice so it would 
absorb less arsenic. In Bangladesh they have also worked on an 
eggplant that needs less pesticides.
    Can you maybe address for us how we have a rational 
conversation, especially with what is facing Africa with wheat 
rust, into the future. We have a rational conversation about 
how we use science to improve the quality of lives and 
resiliency in crops and take the conversation that direction, 
knowing that some of us do support farmers being able to 
collect their seeds, not being into a whole cycle of buying one 
particular product line from seed to storage.
    Could you maybe help us with that? Because as we talk about 
it here, our African colleagues in the parliaments are shaking 
their heads saying, well, if it is not good for the United 
States why would I want it here? How did we get so confused on 
what Norman Borlaug started working on? Who wants to take that 
on?
    Mr. Thurow. Well, that is a good point that you mentioned 
Dr. Borlaug at the end, because he basically, all the work that 
he did in the seeds and the breeding that he did, and of course 
that was with the conventional breeding and he wasn't thinking 
about GMOs and things at that time. And none of them were 
patented. I mean he wasn't developing these to make money 
himself. It was an impression of these seeds as a public good, 
the research as a public good. So it is a very good point you 
make of that they can serve a higher purpose.
    And so I think one of the things that has happened is there 
has been too many dogmatic positions and hardline thinking on 
this. They are either good or they are the best thing to come 
along, and kind of no middle ground in between. And I have seen 
some of the debates in Africa and they are precisely confused 
like that. And they have a great saying in Africa that when the 
elephants fight it is the grass that gets trampled.
    And so the fight in the GMO realm between the United States 
and Europe and the other developed world countries that are 
debating this thing and the contretemps that are going on over 
that it then creates this state that for in Africa for them to 
have a reasoned debate on these things, what their own 
scientists say, what their farmers say, has become very 
difficult.
    So yes, to kind of take the dogmatic positions out of 
there. And then, but I think this whole notion of this research 
and development for a public good that seeds, drought-resistant 
seeds, could be transformational for a lot of smallholder 
farmers. And not only drought-resistant seeds, but particularly 
with the climate change that the smallholder farmers that we 
are all talking about and that you know very well are on the 
front lines of climate change, they are going to bear the brunt 
of whatever changes are coming. They are the ones that are 
going to need to adapt to that. And so again this notion of 
this research and things is for the public good, I think is 
really good.
    Mr. Hong. Yes. I mean, I think one of the things that we 
have found are technology beyond GMOs. When you just think 
about hybrid seed that is available on the market, for many 
farmers they don't have access to technology that has already 
been developed. So what we are trying to push for is to have 
research institutions like the CGIAR system that Borlaug worked 
for at CIMMYT and some of these other centers, make those 
varieties available to farmers.
    I mean, in all the countries where we work GMOs are illegal 
in every place, and so it is not even an issue for us right 
now. What we are talking about are just simple hybrid seeds 
that do need to be repurchased every year, but farmers are 
still able to use informal seeds if they like. They can choose 
whatever they want. And I think for us it is really about 
farmer choice and farmer autonomy and having them have the 
array of choices that are available to many of the farmers in 
developed countries. So for us that is where we are coming 
from.
    Mr. Thurow. I was just going to add that in terms of the 
hybrid seeds, there is so much development and advances that 
can be made when you talk about the yield gaps in Africa that 
can be made up just on the existing seeds, existing standard, 
non-controversial breeding that goes on that there is just a 
wide opportunity there.
    Ms. Woo. So I just want to address this on four dimensions. 
The first one is the economic concerns associated with it, 
which is if you cannot access your own seeds and you have to 
depend on a very large producer that is a major issue. And we 
with the Catholic Church are concerned about that.
    But one of the things we have to remember is that actually 
there is a lot of locally available and publicly available 
hybrids, as some of our colleagues said. So, and also it is a 
balance between how much is the farmer dependent on that. If 
the farmer has diversified crops and not as completely 
dependent on one provider of those seeds, and also if it is 
locally available at the right price and also publicly 
available materials.
    But there is the first question which is the economic 
control that they lose or that they could gain in different 
ways. The second one is you mention irrational fears, and I am 
not able to address that but I just want to say that we have 
dealt with enough change in behavior. There are demonstration 
plots, for example. There are a lot of farmer agents which go 
out there to assist people in making changes, and you never 
just turn over your plot to completely to a new thing. And so 
there are rational vehicles to help people incrementally 
observe the effect, but there is always an irrational part of 
it, but where there are rational vehicles that can be 
undertaken.
    But the third thing, I think there is a lot of politics in 
the discussion of GMOs and they exceed us actually, government 
to government, regulatory bodies, people who set standards and 
so on. But the fourth thing I want to say is that in some 
situations GMOs would be a major contribution, but in other 
situations in a lot of the work that we do we have not bumped 
up against that as a major hindrance or obstacle in making 
progress.
    Mr. Smith. Thank you. Mr. Meadows.
    Mr. Meadows. Thank you, Mr. Chairman. And thank you to the 
group for your testimony, and I am going in there in just a 
little bit. Having been in Kenya working with some local 
farmers, and when we talk about farming I come from an 
agricultural district of North Carolina. When you tell them you 
are going to meet with farmers in Africa they don't comprehend 
that it is a 1-acre little piece of property that they may be 
growing maize on and the struggles that many of the farmers 
have.
    And I guess so I would ask you this, is as we look at the 
aid--and I am proud to work with Chairman Smith and Ranking 
Member Bass on a number of issues. But getting beyond just 
humanitarian relief, which is what you are talking about, is 
actually making it sustainable and reliable, how do we fight 
back about the corruption, the potential for manipulation with 
whether it be on a tribal basis or on a government basis within 
those communities? Because that is a real problem as being 
there on the ground we can talk about a lot of those things, 
but it really are those issues that undermine the very nature 
of what we are trying to do.
    Dr. Woo, do you have any thoughts on that?
    Ms. Woo. Not the whole answer but I just want to say, so 
our partners, we work with about 550 Catholic organizations in 
the field, and so that is one way to work with partners where 
we understand their culture. We understand the workings. It is 
not as conducive to corruption issues, a third party payment.
    Mr. Meadows. Right.
    Ms. Woo. At the end it is within the Church structure, so 
that is how we generally deal with those issues. We are audited 
all the time by the U.S. Government, right, I mean, and so we 
have very strict policies in our financial administration, how 
those things to----
    Mr. Meadows. And I am not suggesting--please don't take it 
that I am suggesting that you are involved in that. It is 
really more at a local level there that----
    Ms. Woo. And so the key, really, is the local partners you 
work with are very important. Are they partners that have 
accountability to the people there? And there are different 
levels of accountability. And so if it is parishes and dioceses 
and so on, there is a structure there. So that is how we bypass 
some of the corruption issue.
    Mr. Meadows. Okay, let me ask a different question then is 
because I know that there were some farmers that would be 
growing beans or maize and truly to provide for their family. 
Government programs, and I am speaking specifically here about 
Kenya, would come in and encourage them to grow other types of 
products which would provide a better yield, supposedly, 
financially. And yet the component was to sell back to the 
government of which they didn't get paid for that for 6 or 9 
months, 12 months, and it breaks up this cycle.
    How do we make sure that the monies that would go forward 
here and the training and education don't get hijacked, and I 
want to say that in a polite way, hijacked into other areas 
that really make farmers grow hungry? Any thoughts on that from 
any of the panel? Or am I wrong with that? Is that not 
happening or do you see that happening?
    Ms. Woo. Oh, I think the compromise of that how incentives 
could create behaviors--this is not part of the program--is 
very much a part of many different development programs. And I 
think where we see it is community advocacy, community voice. 
How you build up the ability of that community to speak up for 
itself is very important, and how it has access to government 
ministries itself, and how again using a co-op structure for it 
to be able to identify these issues and have a vehicle to speak 
up. It happens not just in agriculture. It happens in mining, 
for example, where local communities, their rights to land, the 
proper use of that land and so on is an issue. And there is 
really, advocacy is what we see as an important empowerment, a 
piece.
    Mr. Meadows. Okay. Mr. Thurow?
    Mr. Thurow. Yes, I was going to say that the advocacy, the 
community nature of this, so particularly among the women and 
women's empowerment. Because when they feel that they can speak 
up and that they are being heard, they become a whirlwind of 
force and they don't put up with a lot of the stuff then that 
governments or middlemen or others are doing because they can 
see through that.
    And yes, they are all, there is, with just the farmers in 
the field and their families, this fed-up of they are hearing 
things that there should be services provided by the 
government. They are not there. If they are there is some kind 
of corruption or strings attached that you mention.
    But I think the important thing is that the more self-
sustaining these farmers become, that these smallholder farmers 
become, that they are able themselves to exercise the choices 
that David talks about. What kind of seed, I know what kind of 
seed I want. I know my soil conditions. I know my altitude 
conditions. I know what seeds are working here. That they can 
act on that themselves. And the more empowered they become 
through abandoning and conquering the hunger season by being 
able to effectuate their own independence as farmers, I think, 
makes a tremendous difference.
    Mr. Meadows. Okay. I will yield back, Mr. Chairman.
    Mr. Smith. Okay. Mr. Clawson.
    Ms. Woo. I will just add to say that that is why 
programming is not just directed at individual farmers or 
individual families, it has to address communities and how 
communities in our case is connected up whether it is through 
the Church structure or through government ministry, otherwise 
the individual voice is not enough to overcome that.
    Mr. Clawson. Thank you for coming today. Real quick, an 
observation. You can think on it. Maybe we will talk another 
time, because we have got to go vote.
    It seems to me that if you look at poverty-stricken 
countries either in Asia, southeast Asia, or Africa, the model 
or the choice for poor folks is usually one of the two. 
Subsistence farming--and folks like you help them innovate, do 
better, one acre, et cetera, all that is great of course--or go 
to the city. And you have got some bad choices in the city, 
usually, if you show up from the country with a sack of rice 
and that is it. Okay. And when we speak about how to get out of 
that trap we usually don't talk about a middle kind of model.
    And so just one thing for you all to think about, when 
people come here and ask for our help and our funds, I always 
think of small villages that learn how to make brooms for 
factories in Cambodia or Thailand or some other micro-
manufacturing that grows into bigger manufacturing so that you 
are not either micro-farming your way to eat or--God forbid--
prostitution in the big city. That there is actually something 
where folks learn business skills that could also help them for 
the modern world and make a little money.
    So we don't have time to answer that, but if you will come 
back sometime. I think we miss the only real model out of this, 
and that is not farming your way out and that is not everybody 
go to the city, but let's try to make some things that people 
will buy. But I appreciate everything you all are doing because 
I think it is wonderful.
    Ms. Woo. I just want to say in the Pathway to Prosperity we 
have actually a vehicles that allow people to do post-harvest 
production which is what you are talking about.
    Mr. Clawson. With credit? Because if there is no credit 
those models never work. But you and I should talk another day, 
so I can go vote.
    Ms. Woo. Yes, so it is like canning, juicing, and washing 
and so on.
    Mr. Smith. Thank you, Mr. Clawson. Let me just ask one 
final question. I have many more, but we do have a series of 
votes.
    With regards to wastage, the big emphasis obviously is on 
building up capacity and increasing yield, but how do we 
mitigate wastage? I saw a UNEP suggestion or estimation of $1 
trillion worth of waste, one in four calories worldwide. In the 
U.S. 30 to 40 percent of our food supply is wasted. It is less 
so in Africa, but it is for other reasons, it is mostly because 
of storage. And we know that the MCC build feeder roads in 
Senegal, for example, to help the rice get to market, and I am 
just wondering how much, are we putting enough emphasis on that 
side of the coin?
    Mr. Hong. Yes, I think that is a fundamental part of our 
program. When I say market facilitation, part of that is how do 
we minimize food loss and maximize farm profits. So one of the 
things that we offer farmers are these bags that are 
hermetically sealed storage bags so you can store your grain 
for months, maybe even years at a time. They are developed at 
Purdue and they are great technology. They only cost a few 
dollars. So things like that and training farmers on how to 
store at home so they can safely store those crops are 
fundamental to post-harvest storage.
    Mr. Thurow. Yes, I was going to say that storage and 
storage innovation, I think, in this whole realm of agriculture 
development in addition to really emphasizing nutrition, but 
the storage and eliminating waste is the next holy grail of 
what needs to happen particularly with innovation.
    And David mentioned Purdue, but a lot of the universities 
and a lot of the research institutions here and elsewhere in 
the world and in the developing countries themselves are 
looking at precisely that question, because all the hard work 
that these farmers put into their crops and growing throughout 
the planting season and then have a third or half of their 
crops not even make it out of the field and onto the plate. 
Here in this country what is wasted is food that is prepared to 
be eaten and then not eaten or thrown away. There it doesn't 
even get to the point of being prepared for consumption.
    Ms. Woo. So I just want to say there are four causes of 
food waste in Africa. Number one is people grow things that 
other people do not want. They are not high quality. They are 
harvested too early. They were rotted or whatever it is. Number 
one.
    Number two is the storage issue, that you want it but you 
want a storage to be careful so that it is not infested by 
pests or mold or whatever it is. The third thing is that there 
are no roads to take it to market so you have to sell to each 
other. The fourth is, even when you have roads, smallholder 
farmers are not sophisticated enough to engage a formal market. 
So it needs special assistance and building up that capacity. 
So I think that those are the four causes of food waste in 
Africa.
    Mr. Smith. Thank you. Thank you, all three, for your great 
testimony, for your leadership on these important issues. It 
does help this subcommittee, and by extension the full 
committee and the Congress to do a better job. We are pushing 
very hard to get this legislation passed. It has already passed 
the Foreign Affairs Committee, which there is one other 
committee that needs to consider it and I am sure they will. So 
again thank you for your leadership. It is extraordinary. The 
hearing is adjourned.
    [Whereupon, at 1:53 p.m., the subcommittee was adjourned.]

                                     

                                     

                            A P P E N D I X

                              ----------                              


         Material Submitted for the Record<greek-l>Notice deg.
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

   Material submitted for the record by the Honorable Christopher H. 
 Smith, a Representative in Congress from the State of New Jersey, and 
 chairman, Subcommittee on Africa, Global Health, Global Human Rights, 
                    and International Organizations

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                    [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
